                       Department of the Interior
                      Office of Inspector General




         AUDIT REPORT


         U.S. Fish and Wildlife Service
       Federal Assistance Grants Issued
         to the State of North Dakota,
          Game and Fish Department,
    From July 1, 2003 Through June 30, 2005




Report No. R-GR-FWS-0006-2006    January 2007
                    United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191

                                                                                    January 4, 2007

                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Director of External Audits

Subject:   Audit on the U.S. Fish and Wildlife Service Federal Assistance Grants
           Issued to the State of North Dakota, Game and Fish Department,
           From July 1, 2003 Through June 30, 2005 (No. R-GR-FWS-0006-2006)

        This report presents the results of our audit of costs incurred by the state of North Dakota
(State), Game and Fish Department (Department), under Federal Assistance grants awarded by
the U.S. Fish and Wildlife Service (FWS). The audit included total reported outlays of
approximately $16.8 million on 27 FWS grants that were open during state fiscal years (SFYs)
ended June 30 of 2004 and 2005 (see Appendix 1). The audit also covered Department
compliance with applicable laws, regulations, and FWS guidelines, including those related to the
collection and use of hunting and fishing license revenues and the reporting of program income.

       We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We also identified issues that require FWS attention, including
program income from barter transactions, in-kind contributions, and drawdowns.

       We provided a draft of the report to FWS and the Department for comment. We
summarized the FWS and Department responses after each recommendation, as well as our
comments on the responses. FWS stated they will consider the Department’s comments when
preparing the corrective action plan. We listed the status of each recommendation in
Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
April 4, 2007. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader, Mr.
Lawrence Kopas, at 703-487-5358 or me at 703-487-5345.

cc:   Regional Director, Region 6, U.S. Fish and Wildlife Service
                                               Introduction

Background
The Pittman-Robertson Federal Aid in Wildlife Restoration Act and the Dingell-Johnson Federal
Aid in Sport Fish Restoration Act (Acts) 1 authorize FWS to provide Federal Assistance grants to
states to enhance their sport fish and wildlife restoration programs. The Acts provide for FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. They also
specify that state hunting and fishing license revenues cannot be used for any purpose other than
the administration of the state’s fish and game department.

Objectives
Our audit objectives were to determine whether the Department:

      • claimed the costs incurred under Federal Assistance grants in accordance with the Acts
           and related regulations, FWS guidelines, and the grant agreements;

      • used state hunting and fishing license revenues solely for Department fish and wildlife
           program activities; and

      • reported and used program income in accordance with federal regulations.

Scope
Audit work included outlays totaling approximately $16.8 million on 27 FWS grants that were
open during SFYs 2004 and 2005 (see Appendix 1). We performed our audit at Department
headquarters locations in Bismarck, North Dakota, and visited five regional offices, six wildlife
management areas, and one shooting range (see Appendix 2). This audit was performed to
supplement, not replace, the audits required by the Single Audit Act of 1984, as amended, and
the Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and performed other auditing
procedures that we considered necessary under the circumstances. Our tests and procedures
included:

      • examining the evidence supporting selected expenditures charged to the grants by the
           Department;

1
    As amended 16 U.S.C. §§ 669 and 777, respectively.


                                                         2
   • interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   • reviewing transactions and supporting documentation related to purchases, other direct
       costs, drawdowns of reimbursements, in-kind contributions, and program income;

   • conducting site visits to review equipment and other property; and

   • determining whether the Department used hunting and fishing license revenues solely for
       its sport fish and wildlife program purposes.

To the extent possible, we relied on the work of the Office of the State Auditor that performed
the SFYs 2003-2004 Single Audit, to avoid duplication of audit effort.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions for testing. We did not evaluate the economy, efficiency, or effectiveness of
Department operations nor project the results of tests to the total population of recorded
transactions.

Prior Audit Coverage
On September 10, 2002, we issued “Advisory Report on Costs Claimed by the State of North
Dakota, Game and Fish Department, under Federal Aid Grants from the U.S. Fish and Wildlife
Service from July 1, 1997 To June 30, 1999,” Report No. 2002-E-0011. We followed up on the
report recommendations and found that they had been resolved and implemented.

The state operates on a biennial (2-year) budget, currently SFYs 2005-2006. We reviewed the
State’s most recent Comprehensive Annual Financial Report for SFYs 2003-2004 and the Single
Audit report for SFYs 2003-2004. Our review of the Single Audit report found that the
Department’s Federal Assistance Programs for Sport Fish and Wildlife Restoration grants were
considered major programs and assessed a low risk. In addition, the North Dakota Office of the
State Auditor is required to perform an audit of each state agency every 2-year period; the most
recent audit for the Department was SFYs 2003-2004. These reports did not include any
findings regarding the Department’s Federal Assistance grants or programs.




                                                 3
                                     Results of Audit

Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance and that state hunting and fishing
license revenues were used solely for the Department’s fish and wildlife program activities.
However, we identified the findings listed below and discuss them in more detail in the Findings
and Recommendations section.

       Unreported Program Income From Barter Transactions. The Department did not
       report program income generated from barter transactions on lands within the wildlife
       management areas (WMA) managed and maintained with Federal Assistance funds.

       Inadequate Support for In-Kind Contributions. Volunteer instructor hours claimed as
       in-kind state match under the Hunter Education and Aquatic Education grants were not
       consistently certified by each instructor.

       Drawdowns Made for Federal Reimbursements Without Adequate State Matching
       Share. On grants where the Department anticipated using in-kind contributions to
       provide all or part of its matching share of costs, the Department drew down (requested
       for reimbursement) its total expenditures to date without determining whether it had
       obtained the necessary in-kind match.

Findings and Recommendations

A.     Barter Income

       The Department did not report program income generated from barter transactions on
       lands within the WMA managed and maintained with Federal Assistance funds. The
       Department issues 50 permits each year in which farmers who lease tillable acreage of
       the WMA agree to leave a portion of their crop in the field for the benefit of wildlife, in
       lieu of paying for the use of the land. Since the crops serve as payment for use of the
       land, their value should be reported and accounted for as program income.

       The Code of Federal Regulations (Title 43 § 12.65(b)) defines program income as gross
       income received by the grantee or sub-grantee directly generated by a grant
       supported activity, or earned only as a result of the grant agreement during the grant
       period. Section 12.65(g) states that, ordinarily, program income shall be deducted
       from total allowable costs to determine the net allowable costs. Federal agency
       regulations or the grant agreement may specify another alternative or combination of
       alternatives to account for program income. Also, as specified in FWS Director’s Order
       168, Exhibit 1, program income includes income generated during the grant period from



                                                 4
the harvest of assets—such as timber or hay—that contribute to grant objectives on lands
purchased or managed with Federal Assistance funds.

A Department official told us that he did not report the value of the crops as program
income because he was not aware that the barter arrangements were to be treated as
program income. He also stated that he did not know how to value and report the income
on the Financial Status Report (SF 269), which summarizes expenditure activity over the
grant period. In addition, the Department does not have procedures to identify the barter
transactions, including anticipated program income, or the appropriate accounting and
reporting of this arrangement.

We believe that the value of the crops should be reported as program income since the
Department receives crops in lieu of lease payments and lease payments are required to
be reported as program income. Additionally, the FWS Director’s Order considers
harvest of assets, which we believe would include crops, to be considered income. The
Department has contacted the Office of the State Auditor and the State Office of
Management and Budget for assistance in resolving and implementing the issue of
unreported program income from barter transactions.

Recommendations

We recommend that FWS:

1. resolve the issue of the unreported program income from the barter transactions that
   occurred during the audit period and

2. coordinate with the Department to establish procedures to (a) identify the barter
   transactions, including anticipated program income, along with the appropriate
   accounting and reporting of this arrangement, in the grant application; and (b) report
   the value of the crops received as program income on the SF 269.

Department Response

The Department estimated that the amount of unreported program income from barter
transactions during the audit period was immaterial. However, it stated that it is
developing a spreadsheet to document barter income. It intends to use the spreadsheet to
record barter income during the next field season (2007) on the SF-269 and anticipated
barter income in future grant applications.

FWS Response

FWS indicated they will consider the Department’s comments when preparing the
corrective action plan.




                                        5
     OIG Comments

     Based on the FWS response, we consider the recommendations unresolved. Information
     is needed in the corrective action plan concerning the specific actions taken or planned to
     resolve and implement the recommendations and verifying that FWS reviewed and
     approved the actions planned by the Department. The plan should also include targeted
     completion dates and titles of officials responsible for implementation.

B.   Inadequate Support for In-Kind Contributions

     The Department claims volunteer instructor hours as in-kind contributions for the state
     matching share of costs on the Hunter Education and Aquatic Education grants. These
     hours are not certified by the instructors on a consistent basis. Therefore, all hours
     claimed as in-kind match may not be adequately supported.

     Title 2 C.F.R. 225.55 C1(j), which outlines basic guidelines on cost principles, states that
     for a cost to be allowable under federal awards, the cost must be adequately documented.
     In addition, Title 43 C.F.R. § 12.64 (b)(6), which outlines requirements for matching or
     cost sharing records, states that, to the extent feasible, volunteer services will be
     supported by the same methods that the organization uses to support the allocability of
     regular personnel costs. Volunteer services may be counted as an in-kind state match.

     Department officials were not aware of the requirement that the method used to allocate
     regular personnel costs also applied to its volunteer instructors. As such, they did not
     have procedures requiring that the instructor hours be certified by each individual
     instructor, as regular personnel hours are documented. The Department instead
     documented their volunteer instructor hours on forms titled Final Report (Hunter
     Education) and Event Reporting Form (Aquatic Education). These forms provide for the
     signature of the Chief Instructor and a listing of the individual volunteer instructors
     assisting in the course. Department officials said that the chief volunteer instructor
     certifies all instructor hours for his or her class and is aware of instructor hours through
     visual observation and discussions. The Department feels the hours claimed are accurate
     and were properly certified. Department officials said if FWS requires each volunteer
     instructor to certify their hours, the Department will comply.

     A significant portion of the volunteer instructor hours claimed as in-kind match under the
     Hunter Education and Aquatic Education grants were not adequately supported by each
     volunteer, attesting to the hours spent. The Department claimed in-kind match totaling
     $169,983 for the Hunter Education Grants (W-83-E-32, 33, and 35) and $121,789 for the
     Aquatic Education Grants (F-41-E-17, 18, and 19). Tests of two of the Hunter Education
     grants found that 358 of the 440 hours claimed (81 percent) did not have the volunteer
     instructor signatures. Tests of the three Aquatic Education grants found that 319 of the
     2,261 hours claimed (14 percent) did not have the volunteer instructor signatures.




                                              6
     Recommendations

     We recommend that FWS:

     1. resolve the inadequately supported in-kind matching share and

     2. require the Department to establish and implement procedures requiring volunteer
        instructors to certify the hours they worked.

     Department Response

     The Department did not agree with the recommendations, but will work to implement
     them for the 2007 calendar year. The Department believes there were more than enough
     volunteer hours with adequate support to satisfy both the Hunter and Aquatic Educations’
     in-kind match requirements. In addition, the Department believes that the lead volunteer
     instructor has sufficient knowledge of the class to document the number of hours worked
     by the volunteer instructors. Also, the Department believes that obtaining the additional
     signatures would significantly increase the amount of paperwork and time it would take
     to receive documentation from the individual volunteers.

     FWS Response

     FWS indicated they will consider the Department’s comments when preparing the
     corrective action plan.

     OIG Comments

     Based on the FWS response, we consider the recommendations unresolved. Information
     is needed in the corrective action plan concerning the specific actions taken or planned to
     resolve and implement the recommendations and verifying that FWS reviewed and
     approved the actions planned by the Department. The plan should also include targeted
     completion dates and titles of officials responsible for implementation.

C.   Drawdowns Made of Federal Assistance Funds Without Adequate
     State Matching Share

     On grants where the Department anticipated using in-kind contributions to provide all or
     part of its matching state share of costs, the Department requested reimbursement for
     (drew down) the federal share of total expenditures to date without determining whether
     it had expended the necessary state matching share.

     Title 50 C.F.R. § 80.16 requires payments to be made for the federal share of allowable
     costs incurred by the state in accomplishing approved projects. Under this section, the
     costs—both federal and state matching share—must be incurred (expended or obligated)
     before the state may request reimbursement.



                                              7
Department officials told us that drawdowns were made with the expectation that, by the
end of the grants, the in-kind match requirements would be satisfied or an appropriate
adjustment would be made. In addition, the officials said the Department has significant
over-match from volunteer hours at the end of the grant period. It was the understanding
of Department officials that drawing down the full amount quarterly was therefore
acceptable. Costs for federal reimbursement and state matching share, however, must be
incurred before they are claimed or drawdowns are made. Department officials plan to
change procedures to ensure sufficient in-kind match is available before funds are drawn
down.

The Department may have received reimbursement for the federal share of certain costs
incurred, using as state match volunteer instructor hours that may not have been worked
at the time of the drawdown.

Recommendations

We recommend that FWS:

1. determine whether the state had sufficient in-kind matching contributions and

2. require the Department to establish and implement procedures that ensure that
   sufficient in-kind match is available before funds are drawn down.

Department Response

The Department indicated that it will implement the recommendations by not drawing
federal funds until the in-kind match of volunteer hours have been incurred, beginning
with grants that start in January 2007. In addition, the Department stated it will draw
federal funds based on the volunteer hours incurred for the period of the drawdown.
Finally, the Department believes there was sufficient in-kind match for the Hunter and
Aquatic Education programs at the end of the grant periods audited.

FWS Response

FWS indicated they will consider the Department’s comments when preparing the
corrective action plan.

OIG Comments

Based on the FWS response, we consider the recommendations unresolved. Information
is needed in the corrective action plan concerning the specific actions taken or planned to
resolve and implement the recommendations and verifying FWS reviewed and approved
the data provided and actions planned by the Department. The plan should also include
targeted completion dates and titles of officials responsible for implementation.




                                         8
                                                            Appendix 1

                NORTH DAKOTA GAME AND FISH DEPARTMENT
                 FINANCIAL SUMMARY OF REVIEW COVERAGE
                    JULY 1, 2003 THROUGH JUNE 30, 2005


 Grant           Grant         Reported     Questioned   Federal
 Number         Amount         Outlays        Costs       Share
F-2-R-50      $1,997,000         927,678
F-2-R-51       1,980,000       1,805,934
F-2-R-52       2,075,000         962,764
F-30-DB-46     1,113,200         425,595
F-30-DB-47       397,000         213,445
F-30-DB-48     1,648,933       1,463,683
F-30-DB-49       293,000         234,425
F-30-DB-50     1,364,733         502,594
F-30-DB-51       343,167          96,296
F-38-D-18        465,000          95,000
F-38-D-19        475,000         482,972
F-38-D-20        675,000         332,203
F-41-E-17        280,000         145,166
F-41-E-18        280,000         226,174
F-41-E-19        240,000          96,504
FW-13-T-26       440,000         405,459
FW-13-T-27       400,000         321,261
W-23-D-58      1,542,265       1,643,126
W-23-D-59      1,619,000       1,622,000
W-67-R-44      2,017,000       1,884,207
W-67-R-45      1,800,000       1,696,744
W-83-E-31        409,061         320,603
W-83-E-32        588,000         168,761
W-83-E-33        355,000         373,867
W-83-E-34        209,394         208,057
W-83-E-35        355,000         173,407
W-83-E-36        106,667               0
 Total       $23,468,420     $16,827,925        $0        $0




                                  9
                                 Appendix 2

     NORTH DAKOTA
GAME AND FISH DEPARTMENT
      SITES VISITED

        Headquarters
      Division of Fisheries
      Division of Wildlife
         Airport Office
         Bismarck Lab
        Bismarck Shop

       Regional Offices
         Devils Lake
          Dickinson
         Jamestown
          Riverdale
          Williston

  Wildlife Management Areas
       Crown Butte Lake
           Neu’s Point
           Ochs Point
            Riverdale
       Sweet Briar Lake
             Trenton

             Other
   Minot Rifle and Pistol Club




               10
                                                                                Appendix 3

                NORTH DAKOTA GAME AND FISH DEPARTMENT
             STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


     Recommendations                     Status                    Action Required

A.1, A.2, B.1, B.2, C.1, and   FWS did not indicate        Provide a corrective action plan
C.2,                           concurrence or non-         that identifies the actions taken or
                               concurrence with the        planned to resolve and
                               findings or                 implement the recommendations.
                               recommendations. The        The plan should also include the
                               recommendations are         targeted completion date and the
                               therefore unresolved.       titles of official(s) responsible for
                               Additional information is   implementation of each
                               needed in the corrective    recommendation. We will refer
                               action plan.                any recommendations that are
                                                           not implemented at the end of 90
                                                           days (after April 4, 2007) to the
                                                           Assistant Secretary for Policy,
                                                           Management and Budget for
                                                           resolution and/or tracking of
                                                           implementation.




                                             11
